July 5, 2012

TO:            Marilyn Tavenner
               Acting Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Gloria L. Jarmon/
               Deputy Inspector General for Audit Services


SUBJECT:       The Medicare Contractor’s Payments in Jurisdictions 6, 8, and 15 to Providers for
               Full Vials of Herceptin Were Often Incorrect (A-05-10-00091)


Attached, for your information, is an advance copy of our final report on the Medicare
contractor’s payments in Jurisdictions 6, 8, and 15 to providers for full vials of Herceptin. We
will issue this report to National Government Services within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
Sheri L. Fulcher, Regional Inspector General for Audit Services, Region V, at (312) 353-2618 or
through email at Sheri.Fulcher@oig.hhs.gov. Please refer to report number A-05-10-00091.


Attachment
                                                               O FFICE OF A UDIT S ERVICES , R EGION V
                                                                   233 N ORTH M ICHIGAN , S UITE 1360
                                                                                  C HICAGO , IL 60601
July 10, 2012

Report Number: A-05-10-00091

Mr. Mike Kapp
President
National Government Services
8115 Knue Road
Indianapolis, IN 46250

Dear Mr. Kapp:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled The Medicare Contractor’s Payments in Jurisdictions 6, 8,
and 15 to Providers for Full Vials of Herceptin Were Often Incorrect. We will forward a copy
of this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Jaime Saucedo, Audit Manager, at (312) 353-8693 or through email at
Jaime.Saucedo@oig.hhs.gov. Please refer to report number A-05-10-00091 in all
correspondence.

                                             Sincerely,



                                             /Sheri L. Fulcher/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Mr. Mike Kapp


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management and Fee for Service Operations
601 East 12th Street, Room 235
Kansas City, MO 64106
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




 THE MEDICARE CONTRACTOR’S
        PAYMENTS IN
 JURISDICTIONS 6, 8, AND 15 TO
       PROVIDERS FOR
  FULL VIALS OF HERCEPTIN
   WERE OFTEN INCORRECT



                       Daniel R. Levinson
                        Inspector General

                           July 2012
                         A-05-10-00091
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Herceptin, also known as trastuzumab, is a Medicare-covered drug used to treat breast cancer
that has spread to other parts of the body. Herceptin comes in a multiuse vial of 440 milligrams.
A multiuse vial contains more than one dose of medication and is labeled as such by the
manufacturer. The manufacturer supplies the drug in a carton containing a multiuse vial of
440 milligrams of Herceptin and one 20-milliliter vial of bacteriostatic water for injection
(BWFI) containing a solution of 1.1 percent benzyl alcohol as a preservative. A vial of
Herceptin, when reconstituted with BWFI and stored properly, can be used for up to 28 days.

For multiuse vials, Medicare pays only for the amount administered to a beneficiary and does not
pay for any discarded drug. Therefore, a payment for an entire multiuse vial is likely to be
incorrect. Previous Office of Inspector General reviews have noted that providers may not be
billing Herceptin lines of service correctly.

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services administers the program.

Effective January 1, 2007, National Government Services became the Medicare contractor in
Illinois, Indiana, Michigan, Ohio, and Wisconsin. During our audit period (January 1, 2007,
through December 31, 2009), 23,085 line items for Herceptin totaling approximately
$38.7 million were processed in these States. Of these 23,085 line items, 3,966 totaling
approximately $9.6 million had 44, 88, 132, or 176 units of service that represent billings
equivalent to entire multiuse vials. In this audit, we did not review entire claims; rather, we
reviewed the specific line items within the claims that met these criteria.

OBJECTIVE

Our objective was to determine whether Medicare payments that National Government Services
made to providers for full vials of Herceptin were correct.

SUMMARY OF FINDINGS

Most Medicare payments that National Government Services made to providers for full vials of
Herceptin were incorrect. Specifically, of the 3,966 selected line items, 3,093 (78 percent) were
incorrect and included overpayments totaling $3,351,807, or more than one-third of total dollars
reviewed. These providers had not identified or refunded these overpayments by the beginning
of our audit. Providers refunded overpayments on 257 line items totaling $240,781 before our
fieldwork. The 616 remaining line items were correct.

On each of the 3,093 incorrect line items, the providers reported the units of service for the entire
content of 1 or more vial(s), each containing 440 milligrams of Herceptin, rather than reporting
the units of service for the amount actually administered. The providers attributed the incorrect
payments to clerical errors and to billing systems that could not prevent or detect the incorrect


                                                  i
billing of units of service. National Government Services made these incorrect payments
because neither the Fiscal Intermediary Standard System nor the Common Working File had
sufficient edits in place during our audit period to prevent or detect the overpayments.

RECOMMENDATIONS

We recommend that National Government Services:

   •   recover the $3,351,807 in identified overpayments,

   •   implement or update system edits that identify for review multiuse-vial drugs that are
       billed with units of service equivalent to the dosage of an entire vial(s), and

   •   use the results of this audit in its provider education activities.

NATIONAL GOVERNMENT SERVICES COMMENTS

In written comments on our draft report, National Government Services stated that the claims list
identifying $3,351,807 in overpayments had been reviewed and the claims canceled or adjusted
accordingly, with recoveries to be confirmed by National Government Services’ claims and
overpayment recovery units. National Government Services also stated that it was researching
the feasibility of implementing a system edit to address our second recommendation. Regarding
our third recommendation, National Government Services stated that provider outreach activities
would be transitioned to the Wisconsin Physicians Service Insurance Corporation effective
May 23, 2012, for the workload reviewed, and the audit recommendation would be incorporated
into the transition schedule.

National Government Services’ comments are included in their entirety as the Appendix.




                                                  ii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION ...................................................................................................................... 1

      BACKGROUND .................................................................................................................. 1
        Medicare Contractors ...................................................................................................... 1
        Claims for Drugs ............................................................................................................. 1
        Herceptin ......................................................................................................................... 2
        National Government Services ....................................................................................... 2

      OBJECTIVE, SCOPE, AND METHODOLOGY ................................................................ 2
        Objective ......................................................................................................................... 2
        Scope ............................................................................................................................... 2
        Methodology ................................................................................................................... 3

FINDINGS AND RECOMMENDATIONS ............................................................................. 3

      FEDERAL REQUIREMENTS .................................................................................. 4

      OVERPAYMENTS OCCURRED ON MOST LINE ITEMS REVIEWED ....................... 4

      CAUSES OF INCORRECT MEDICARE PAYMENTS ..................................................... 4

      RECOMMENDATIONS ...................................................................................................... 5

      NATIONAL GOVERNMENT SERVICES COMMENTS ................................................. 5

APPENDIX

      NATIONAL GOVERNMENT SERVICES COMMENTS




                                                                      iii
                                                INTRODUCTION

BACKGROUND

Herceptin 1 is a Medicare-covered drug used to treat breast cancer that has spread to other parts of
the body. Herceptin comes in a multiuse vial of 440 milligrams. A multiuse vial contains more
than one dose of medication and is labeled as such by the manufacturer. However, for multiuse
vials, Medicare pays only for the amount administered to a beneficiary and does not pay for any
discarded amounts. Previous Office of Inspector General reviews 2 have noted that providers
may not be billing Herceptin lines of service correctly.

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Contractors

CMS contracts with Medicare contractors to, among other things, process and pay Medicare
claims submitted for outpatient services. 3 The Medicare contractors’ responsibilities include
determining reimbursement amounts, conducting reviews and audits, and safeguarding against
fraud and abuse. Federal guidance provides that Medicare contractors must maintain adequate
internal controls over automatic data processing systems to prevent increased program costs and
erroneous or delayed payments. To process providers’ claims for outpatient services, the
Medicare contractors use the Fiscal Intermediary Standard System and CMS’s Common
Working File (CWF). The CWF can detect certain improper payments during prepayment
validation.

Claims for Drugs

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains line items that detail each provided service. Providers should
use the appropriate Healthcare Common Procedure Coding System (HCPCS) code for the drug
administered and report units of service in multiples of the units shown in the HCPCS narrative
description. 4 Multiuse vials are not subject to payment for discarded amounts of the drug.

1
    Herceptin is Genentech’s registered trademark for the drug trastuzumab.
2
 These reports include A-05-10-00017, issued September 7, 2011; A-05-10-00016, issued October 17, 2011; and
A-05-10-00025, issued December 13, 2011. Although these reports dealt with various types of incorrect payments,
some related to incorrect billings equivalent to entire multiuse vials of Herceptin.
3
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. In this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC, whichever is
applicable.
4
    HCPCS codes are used throughout the health care industry to standardize coding for medical procedures.


                                                           1
Multiuse vials are typically used for more than one date of service and can be stored for up to 28
days. Therefore, a payment for an entire multiuse vial is likely to be incorrect.

Herceptin

Herceptin is a monoclonal antibody, one of a group of drugs designed to attack specific cancer
cells. The manufacturer supplies the drug in a carton containing a multiuse vial of
440 milligrams of Herceptin and one 20-milliliter vial of bacteriostatic water for injection
(BWFI) containing a solution of 1.1 percent of benzyl alcohol as a preservative. A vial of
Herceptin, when reconstituted with BWFI and stored properly, can be used for up to 28 days.
When a patient is allergic to benzyl alcohol, sterile water without a preservative should be used
and any unused portion of the mixture discarded. The HCPCS code for Herceptin is J9355, with
a narrative description of “injection, trastuzumab 10mg.” An entire multiuse vial of 440
milligrams of reconstituted Herceptin when administered would be reported as 44 units for
Medicare billing.

National Government Services

Effective January 1, 2007, National Government Services became the Medicare contractor in
Illinois, Indiana, Michigan, Ohio, and Wisconsin. During our audit period (January 1, 2007,
through December 31, 2009), 23,085 line items were processed for Herceptin in these States.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicare payments that National Government Services
made to providers for full vials of Herceptin were correct.

Scope

During our audit period, National Government Services processed 23,085 outpatient Part B
service line items of Herceptin totaling approximately $38.7 million. Of these 23,085 line items,
3,966 items totaling approximately $9.6 million had 44, 88, 132, or 176 units of service that
represented billings equivalent to entire multiuse vials.

We limited our review of National Government Services’ internal controls to those that were
applicable to the selected payments because our objective did not require an understanding of all
internal controls over the submission and processing of claims. Our review allowed us to
establish reasonable assurance of the authenticity and accuracy of the data obtained from the
National Claims History file, but we did not assess the completeness of the file.

Our fieldwork was conducted from November 2010 through May 2011 and included contacting
National Government Services in Indianapolis, Indiana, and the 142 providers in Illinois,
Indiana, Michigan, Ohio, and Wisconsin that received the selected Medicare payments.




                                                2
Methodology

To accomplish our objective, we:

       •   reviewed applicable Federal laws, regulations, and guidance;

       •   used CMS’s National Claims History file to identify outpatient line items in which
           payments were made for HCPCS code J9355 (Herceptin);

       •   identified 3,966 line items with unit counts 5 of 44, 88, 132, or 176, totaling
           approximately $9.6 million, that National Government Services paid to 142 providers;

       •   contacted the 142 providers that received Medicare payments associated with the selected
           line items to determine whether the information conveyed in the selected line items was
           correct and, if not, why the information was incorrect;

       •   reviewed documentation that the providers furnished to verify whether each selected line
           item was billed correctly; specifically, we reviewed documentation to support:

               o the medical condition of the beneficiary in determining the necessity of the
                 medication,
               o physician’s orders for medication,
               o that the medication was administered, and
               o the type of solution used to reconstitute the Herceptin (BWFI containing
                 1.1 percent benzyl alcohol or sterile water);

       •   coordinated the calculation of overpayments with National Government Services; and

       •   discussed the results of our review with National Government Services on
           November 29, 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                 FINDINGS AND RECOMMENDATIONS

Most Medicare payments that National Government Services made to providers for full vials of
Herceptin were incorrect. Specifically, of the 3,966 selected line items, 3,093 (78 percent) were
incorrect and included overpayments totaling $3,351,807, or more than one-third of total dollars
reviewed. These providers had not identified or refunded these overpayments by the beginning

5
    At National Government Services, we did not have any instances of line items with unit counts of 176.



                                                           3
of our audit. Providers refunded overpayments on 257 line items totaling $240,781 before our
fieldwork. The 616 remaining line items were correct.

On each of the 3,093 incorrect line items, the providers reported the units of service for the entire
content of 1 or more vial(s), each containing 440 milligrams of Herceptin, rather than reporting
the units of service for the amount actually administered. The providers attributed the incorrect
payments to clerical errors and to billing systems that could not prevent or detect the incorrect
billing of units of service. National Government Services made these incorrect payments
because neither the Fiscal Intermediary Standard System nor the CWF had sufficient edits in
place during our audit period to prevent or detect the overpayments.

FEDERAL REQUIREMENTS

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04 (the Manual), chapter 23,
section 20.3, states: “providers must use HCPCS codes … for most outpatient services.”
According to chapter 17, section 70, of the Manual, when a provider is billing for a drug
“[w]here HCPCS is required, units are entered in multiples of the units shown in the HCPCS
narrative description. For example, if the description for the code is 50 mg, and 200 mg are
provided, units are shown as 4 ….”

Chapter 17, section 40, of the Manual also states: “Multi-use vials are not subject to payment for
discarded amounts of drug ….” Finally, chapter 1, section 80.3.2.2, of the Manual states: “In
order to be processed correctly and promptly, a bill must be completed accurately.”

OVERPAYMENTS OCCURRED ON MOST LINE ITEMS REVIEWED

Providers reported incorrect units of service on 3,093 (78 percent) of the 3,966 line items
reviewed, resulting in overpayments totaling $3,351,807 (35 percent) of the $9.6 million total
dollars reviewed. Providers billed Medicare for the entire vial containing 440 milligrams of
Herceptin, rather than billing only for the amount actually administered.

For example, one provider administered 140 milligrams of Herceptin to a patient and billed for
44 units of service (440 milligrams). Based on the HCPCS description of Herceptin (injection,
trastuzumab, 10 milligrams), the number of units to be reported for 140 milligrams is 14. 6 This
error occurred on 51 separate occasions for 1 patient; as a result, National Government Services
paid the provider $108,763 when it should have paid $33,932, an overpayment of $74,831.

CAUSES OF INCORRECT MEDICARE PAYMENTS

The providers attributed the incorrect payments to clerical errors and to billing systems that
could not prevent or detect the incorrect billing of units of service. National Government
Services made these incorrect payments because neither the Fiscal Intermediary Standard System
nor the CWF had sufficient edits in place to prevent or detect the overpayments. In effect, CMS
6
  If the drug dose used in the care of a patient is not a multiple of the HCPCS code dosage descriptor, the provider
rounds to the next highest unit based on the HCPCS long descriptor to report the dose.



                                                          4
relied on beneficiaries to review their Medicare Summary Notice 7 and disclose any
overpayments.

RECOMMENDATIONS

We recommend that National Government Services:

    •   recover the $3,351,807 in identified overpayments,

    •   implement or update system edits that identify for review multiuse-vial drugs that are
        billed with units of service equivalent to the dosage of an entire vial(s), and

    •   use the results of this audit in its provider education activities.

NATIONAL GOVERNMENT SERVICES COMMENTS

In written comments on our draft report, National Government Services stated that the claims list
identifying $3,351,807 in overpayments had been reviewed and the claims canceled or adjusted
accordingly, with recoveries to be confirmed by National Government Services’ claims and
overpayment recovery units. National Government Services also stated that it was researching
the feasibility of implementing a system edit to address our second recommendation. Regarding
our third recommendation, National Government Services stated that provider outreach activities
would be transitioned to the Wisconsin Physicians Service Insurance Corporation effective
May 23, 2012, for the workload reviewed, and the audit recommendation would be incorporated
into the transition schedule.

National Government Services’ comments are included in their entirety as the Appendix.




7
  The Medicare contractor sends a Medicare Summary Notice— an explanation of benefits—to the beneficiary after
the provider files a claim for services. The notice explains the services billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.



                                                         5
APPENDIX
   APPENDIX: NATIONAL GOVERNMENT SERVICES COMMENTS 




• ,LNational Cl!vernment
  ~       services.                                                                         Medicare
    N,l tio nul Governmen t Services, Inc.
    8 115 Knlle I{oild
    Indianilpolis, Indiana 46250-1936
    A eMS Om/flirted Agf'!11



    May 21,2012


    Ms. Sheri Fulcher 

    Regional Inspector General for Audit Services 

    Office of Inspector General 

    Office of Audit Services, Region V 

    233 North Michigan, Suite 1360 

    Chicago,IL 60601 


    Report Number: A-05-10-00091

    Dear Ms. Fulcher,

    The following presents our response to the connnents made in your report dated April 20, 2012:

    Becqrumendatjqn!             Becqyertbe $3 351807 jn jdentified gyemayment§


    The claims listing has been reviewed and wOlxed accordingly. As required, claims have been cancelled or
    adjusted, -with a status provided as applicable. The recoveries "Will be confirmed by 1x:Jth the NGS Claims
    and Overpayment Recovery units to ensure completion.

    NOTE: There are workloads included in the OIG review that have since transitioned from NGS. These
    include both the transitions of J11 (00453) and J15 (00160 & 00332).

    Recommendation 2 - Implement system edits that jdentify for revjew multiuse-vja1
    drugs that are hilled with unjts of seryjce equivalent to the dosage of an entjre
   :iliJ.!..i..l.
    The feasibility of implementing a system edit is currently being researched. Several questions require
    further understanding to include the specifics of the drug Herceptin being administered, the potential
    impact on the Medical Review Strategy plans, and the manual processes that may be required.

    Reconnnendatjon 3 - Use the results of this audit jn its provider educatjon
    actjyjtjn

    Provider Outreach activities "Will be transitioned to the Wisconsin Physicians Service Insurance Corporation
    (WPS) effective May 23r d for the workload reviewed. The audit recommendation "Will be incorporated into
    the current transition schedule.


    Sincerely yours,

    lsi Tricia Backofen 

    Director NGS Operations Excellence 




                                                                                                     CAlsJ 

